■

$n tfje

Sntuana Supreme Court

'N

William Shecoby Palmer,
Appellant,

Court of Appeals Case No.
20A-TP-834
Trial Court Case No.
45C01-1908-TP-1221

V.

Harolyn Williams,
Appellee.

FILED
Feb 23 2021,4:02 pm

CLERK

Indiana Supreme Court
. Court of Appeals A
W. and Tax Court ^

Order
The Court of Appeals dismissed this appeal on October 8, 2020. Because Appellant’s
petition for rehearing was tendered but never filed, a petition to transfer was due no later than
November 23. Ind. Appellate Rules 25, 57(C)(1). Postmarked November 14, Appellant tendered
a defective petition to transfer and several other documents that were wholly noncompliant with
the Appellate Rules. The Clerk issued Notices of Defect regarding those documents, but
Appellant failed to cure the defects within the time provided. The Clerk therefore issued notice
on January 14, 2021 that the defects had not been corrected.
Now, postmarked January 30, Appellant has tendered another petition to transfer and
seeks leave to file it belatedly. The motion notes that appellate courts have discretion to accept
late filings, but it offers no explanation for why Appellant was unable to timely correct the
defects identified by the Clerk. Moreover, the tendered petition to transfer appears to challenge
the validity of the tax sale—but the only issue available on transfer is the Court of Appeals’s
dismissal of this appeal, and the petition to transfer wholly fails to address that issue.
Accordingly, Appellant could not obtain relief on transfer even if the Court allowed his belated
petition to be filed.
Being duly advised, the Court DENIES Appellant’s “Motion for Leave to File a Belated
Appellant’s Pleadings.” This appeal is at an end.
Done at Indianapolis, Indiana, on 2/23/2021

'....

5/25/2021 9:06:32 AM

To: CLE CLERKS MAILRO
Sender:

W PALMER VS H

! Loretta H. Rush
Chief Justice of Indiana

RECEIVED
MAY 2 5 2021

IN THE

COURT OF APPEALS OF INDIANA
William Shecoby Palmer,
Appellant,
Court of Appeals Case No.
20A-TP-834

V.

Harolyn Williams,

FILED

Appellee.

Oct 08 2020, 3:03 pm

CLERK

Indiana Supreme Court
. Court of Appeals .
W and Tax Court ^

Order
[i]

Appellant, pro se, has filed the following motions: (1) Motion to Amend for Good Cause
Indiana Supreme Court 47; (2) Motion for Leave to File Belated Appellant’s Pleadings; (3)
Motion to Amend for Good Cause Indiana Supreme Court 47 (duplicate copy); and (4)
Indiana Appellant Motion for Practice Rule 34 .

[2]

Having reviewed the matter, the Court finds and orders as follows:

[3]

1. Appellant’s (1) Motion to Amend for Good Cause Indiana Supreme Court 47; (2)
Motion for Leave to File Belated Appellant’s Pleadings; (3) Motion to Amend for
Good Cause Indiana Supreme Court 47 (duplicate copy); and (4) Indiana Appellant
Motion for Practice Rule 34 are all denied.
2. This appeal is dismissed with prejudice. See App. R. 45(D).
3. The Clerk of this Court is directed to send a copy of this order to the parties, the
trial court, and the Lake Circuit and Superior Courts Clerk.
4. The Lake Circuit and Superior Courts Clerk is directed to file a copy of this order
under Cause Number 45C01-1918-TP-1221, and, pursuant to Indiana Trial Rule
77(D), the Clerk shall place the contents of this order in the Record
of Judgments and Orders.
10/8/2020
Ordered
Vaidik, J., Friedlander, Rucker Sr. JJ., concur.
For the Court,

fi-lkll l
Chief Judge

Page 1 of 1

